<html>
<title> - U.S. POLICY TOWARD IRAQ</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





                        U.S. POLICY TOWARD IRAQ

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, MARCH 23, 2000

                               __________

                           Serial No. 106-134

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
66-252 CC                    WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                  Stephen G. Rademaker, Chief Counsel
                    Marilyn C. Owen, Staff Associate




                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable C. David Welch, Assistant Secretary, Bureau of 
  International Organization Affairs, U.S. Department of State...    10
The Honorable A. Elizabeth Jones, Principal Deputy Assistant 
  Secretary, Bureau of Near Eastern Affairs, U.S. Department of 
  State..........................................................    15
Ms. Alina Romanowski, Deputy Assistant Secretary for Near Eastern 
  and South Asian Affairs, U.S. Department of Defense............    15

                                APPENDIX

Prepared Members' statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    32
The Honorable John Conyers, Jr., a Representative in Congress 
  from Michigan..................................................    35
The Honorable Sam Gejdenson, a Representative in Congress from 
  Connecticut....................................................    40
The Honorable Joseph Crowley, a Representative in Congress from 
  New York.......................................................    41

Prepared Witness statements:

Assistant Secretary David Welch and Principal Deputy Assistant 
  Secretary Beth Jones, U.S. Department of State.................    45
Alina L. Romanowski, Principal Assistant Secretary, Department of 
  Defense........................................................    51

Additional materials submitted for the record:

Question submitted by William Delahunt, a Representative in 
  Congress from Massachusetts, together with answer of Assistant 
  Secretary Welch (Exhibit A)....................................    56
Letter submitted by Christopher Smith, a Representative in 
  Congress from New Jersey and Chairman, Subcommittee on 
  International Operations and Human Rights, to Secretary of 
  State Madeleine Albright on February 18, 2000 (Exhibit B)......    57
Question submitted by Mr. Smith, together with answer of 
  Assistant Secretary Welch (Exhibit C)..........................    60
Question submitted by Mr. Smith, together with answer of 
  Assistant Secretary Welch (Exhibit D)..........................    61
Question submitted by Marshall ``Mark'' Sanford, a Representative 
  in Congress from South Carolina, together with answer of Deputy 
  Assistant Secretary of Defense Alina Romanowski, (Exhibits E 
  and F).........................................................    62

 
                        U.S. POLICY TOWARD IRAQ

                              ----------                              


                        Thursday, March 23, 2000

                  House of Representatives,
              Committee on International Relations,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10 a.m., in room 
2200, Rayburn House Office Building, Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman.  The Committee will come to order.
    I want to welcome our distinguished witnesses to today's 
hearing on our nation's policy toward Iraq. Iraq has been a 
festering foreign policy problem for our nation for a long 
time. What most distresses us is that our nation stopped making 
headway on the problem years ago. Now it seems that, pretty 
much across the board, we are losing ground to Saddam Hussein.
    There have been no international weapons inspections in 
Iraq for 15 months. There is every reason to believe that 
Saddam has used this time to reconstitute his weapons of mass 
destruction programs. Three months ago, the U.N. decided to set 
up a new inspections program, but we all know that threatened 
vetoes in the U.N. Security Council are likely to prevent that 
new organization from beginning work in Iraq for many, many 
months.
    Our nation has a policy of containing Saddam militarily. 
That policy has cost us some $8 billion since the end of the 
Gulf War in 1991.
    It cost over $1.2 billion last year alone.
    In December 1998, we launched Operation Desert Fox to 
punish Saddam for not cooperating with international weapons 
inspections. The Administration told us at that time that we 
had degraded Saddam's capabilities and so the operation was 
declared a success. Since then, Saddam has routinely challenged 
our aircraft patrolling over the no-fly zones, and we have 
retaliated each time with air strikes. Again, we are told that 
this policy is a success because it is degrading Saddam's 
capabilities.
    Maybe we are degrading his capabilities, but he does not 
seem to mind too much, because he keeps provoking us to degrade 
him some more. A year and a half ago, a number of us here in 
the Congress decided to help our President end this problem 
once and for all by passing the Iraq Liberation Act. That 
legislation authorized the President to provide $97 million in 
U.S. military assistance to the democratic opposition to Saddam 
Hussein.
    President Clinton welcomed that authority, and in November 
1998 he declared he was going to use it to remove Saddam from 
power. Since then, there has been precious little follow 
through on the President's commitment. Of the $97 million we 
authorized in military assistance to the opposition, the only 
assistance that has actually been provided is training for four 
men in civil affairs.
    Of the $18 million we appropriated on three separate 
occasions for political assistance to the opposition, not one 
dime has actually been provided to the opposition, and less 
than $4 million has been expended on their behalf. It is no 
wonder that our allies in the region, to say nothing of members 
of the opposition itself, question whether the Administration 
is really serious about its declared policy of removing Saddam 
from power. If the Administration is truly serious about 
supporting the opposition, there are two things it should do 
right away.
    First, it should immediately deliver to the opposition the 
assistance that currently is being withheld. The funds we have 
appropriated for the opposition should immediately be 
transferred to the opposition, and the military drawdown 
authority should be invoked to begin providing equipment such 
as radio transmitters, uniforms, boots, and communications 
gear.
    Second, the Administration should immediately establish a 
cross-border humanitarian aid program into Iraq, run by the 
Iraqi opposition. Such a program could do a great deal to 
ameliorate the plight of the Iraqi people, who continue to 
suffer under Saddam's rule. It also would address the concern 
that some members have expressed about the effect of U.N. 
sanctions on the Iraqi people.
    I want to urge the Administration today to take these two 
steps in order to demonstrate that it stands by President 
Clinton's November 1998 pledge to remove Saddam from power. 
Before I recognize our witnesses, I would like to recognize our 
Ranking Member, Mr. Gejdenson, for any opening remarks that he 
may have. Mr. Gejdenson.
    [The prepared statement of Chairman Gilman appears in the 
appendix.]
    Mr. Gejdenson.  Mr. Chairman, might we suspend with the 
opening remarks? We have our colleague here who wants to make a 
statement and needs your approval. Could we all hold up and let 
Mr. Conyers speak, if that is OK?
    Chairman Gilman: Without objection, if that is agreeable, 
we will proceed. I would like to welcome our distinguished 
colleague, the Honorable John Conyers of Michigan, who has 
asked to join us today to make a brief statement. I know of his 
long abiding interest with regard to Iraq. Mr. Conyers.
    Mr. Conyers.  Thank you very much, Chairman Gilman; and my 
dear friend, Mr. Gejdenson; my colleague on Judiciary, Mr. 
Berman; and, of course, Barbara Lee, who I have worked with for 
years; and Members of the Committee. I am delighted to be here. 
You have my prepared statement. I wanted to just take a few 
minutes to summarize where we are going, because I heard the 
ending part of the Chairman's opening remarks, with which I 
agree.
    Before I start, I wanted to thank the Chairman and Ranking 
Member for all they have been doing in trying to get Haiti's 
elections on the right path. That is a very important issue for 
me, and I would like to praise you for that. You were going 
down there before I was, Mr. Chairman, and we enjoy your staff 
accompanying us and helping us out. Now, the question here is 
that after we have had resignations from two Assistant 
Secretaries General for United Nations Humanitarian Relief, 
Halliday and Von Sponeck, the pressures are now rising. Today I 
noticed we have increased the amount of food-for-oil ratios. I 
think it has been doubled, and I am happy about that.
    But there is a fundamental problem, which is that 23 
million people cannot recover from a wrecked infrastructure, no 
matter how much we raise those levels. What I am here to 
suggest to you is that the UNICEF figure of 5,000 children 
dying every month has raised us to a point where this is 
trading our integrity and our belief in human rights. As a 
matter of fact, we are undermining them by continuing the oil-
for-food transaction.
    I would like to suggest to you, and maybe I am the first 
witness you had who would take into account that maybe the time 
has come for us to abandon this plan. It is too complicated to 
administer. The U.N. has not been effectively doing it. I think 
that what we are doing here, Mr. Chairman and Members, is 
committing war by yet another means.
    So it is my hope that we will consider that the main 
problem with oil-for-food is that it does not generate 
sufficient funds to begin the process of rehabilitating Iraq's 
infrastructure, which is now at a very, very low level and 
condition.
    Children are dying from diseases that would otherwise be 
treated. The long-term danger of economic sanctions goes beyond 
the crisis of dying children. There are many other problems as 
well. The point that I have arrived at, thanks to Bishop Thomas 
Gumbelton and Reverend Ed Rowe of the Methodists, Denis 
Halliday, whom I have met with, the Institute of Policy Studies 
staffer Phyllis Dennis, and many others, has led me to suggest 
to you that we consider doing a couple of things.
    As long as there is a temporary program, it is not going to 
work. If we lift it altogether, the economic sanctions 
altogether, do away with the oil-for-food restrictions, and 
replace it instead with monitoring from both the inside and the 
outside, with the U.N. watching the borders, I think with 
UNMOVIC we will be able to move much further down the line. The 
reason that we would be able to move away from the humanitarian 
problem, of course, is that we would be able to bring in 
medical supplies and food.
    Also, in the dual-use area, I would beg you to look at that 
in terms of some of the things we can do with chlorine and 
incubators that could be monitored carefully enough so that we 
would not run into a problem. So increasing the allocation is 
not enough. Temporarily lifting the ban is not enough. I think 
that we would begin to strengthen ourselves, in terms of 
building up a citizenry for the objective that you and I all 
are working toward. I think Hussein's burned a lot of bridges 
behind him with the OPEC countries as well. I think there could 
be a quid pro quo for lifting these sanctions. I think Tariq 
Aziz would support monitoring with a new kind of cooperation, 
if there were a lifting of this ban.
    So I think that this ought to move in that direction, 
because we cannot achieve democracy by undemocratic means. We 
cannot inspire respect for human rights by undermining them. I 
beg that you consider the fact that the killing of 500,000 
children because we have not been creative enough to create 
another way to prevent the possibility of an unknown potential 
future threat, is simply unacceptable.
    I thank you for this time. My detailed remarks are, of 
course, included in my statement.
    [The prepared statement of Mr. Conyers appears in the 
appendix.]
    Chairman Gilman.  Thank you, Mr. Conyers, for taking the 
time to appear before us.
    Are there any questions anyone would like to direct to Mr. 
Conyers? We appreciate your continued interest in humanitarian 
efforts, and particularly in Haiti, as well as this issue. Mr. 
Berman.
    Mr. Berman.  If you accept the premise that the regime in 
Iraq is totalitarian, in a sense it controls. If you were to 
get rid of embargoes on trade in food and medicines, it would 
control distribution and all of that. Why would that make 
things better than the oil-for-food and medicines program that 
now exists, and also provides in part for distribution of food 
and medicines in the North of Iraq? In a sense, the Iraqi oil 
is being used to pay to help feed and supply the Kurds in the 
North.
    Mr. Conyers.  There are a couple of considerations, Mr. 
Berman. One is that there is a maldistribution of what is going 
on between the north and mid-south, a very serious one that has 
been brought to my attention, in terms of the supplies and 
equipment.
    Mr. Berman.  Do you mean more is getting to the north?
    Mr. Conyers.  To the north; yes, sir. But over and beyond 
that, what we are doing is that we are becoming the oppressors. 
Obviously, we are reducing the possibility of the people from 
ever becoming organized and increasing their resistance because 
obviously they are blaming us. It is our policy, although I 
have heard arguments both ways.
    By changing this formula drastically, as I have suggested, 
we would then be allowing Iraq to make major financial 
investments. There is no way they can do that now, because they 
cannot develop their oil resources any further and because 
nobody will invest there at this point.
    That is why I think that the foreign minister has agreed to 
comply stringently with the requirements that we would put on. 
Most importantly, the food and the medicines would have to be 
going to the people. That would encourage them.
    As a matter of fact, it has been predicted that they would 
then begin to invest more in their own people themselves than 
they have been, since they did that after the Iraq-Iran war. We 
think that would resume again. Right now they are just blaming 
us. That is why I recommend that there be a departure, a 
drastic departure, to help the Iraqi people.
    Mr. Berman.  Their investments during the Iraq-Iran war 
were for weapons, many of them provided by Western countries, 
to develop their nerve gas potential to use against their own 
people in Iraq.
    Mr. Conyers.  There was some of that. But the people that 
have told me that they would be able to employ more resources. 
Whether they would or not, I cannot defend against any 
arguments.
    Mr. Berman.  Thank you, Mr. Chairman.
    Chairman Gilman.  Mr. Smith.
    Mr. Smith.  Thank you very much.
    Mr. Conyers, I share concern, as we all do, about the loss 
of life for children, and women and men in Iraq, but especially 
for the children. I am frankly torn about the efficacy of the 
sanctions.
    I have been going back and forth in my own mind about what 
is being achieved when you have a malevolent dictator like 
Saddam Hussein, who in my view, and I think you would agree, 
and maybe you might want to say it for the record, compounds 
the problem by not allowing, by impeding, the flow of medicines 
and food so that more children do die so then he can turn 
around and say, look, see what the sanctions are doing.
    I think we have to be very cognizant of that lethal game 
that he employs. Just a couple of very brief comments: A 1999 
UNICEF study found an increase in child mortality since 1991. 
It noted that Iraq had not allowed implementation of the food-
for-oil program until 1996, too late to have a substantial 
impact on the child mortality statistics measured by the study, 
which were for the period 1994 to 1999.
    Again, if there are ten children who are dying, that is ten 
too many. If there is one child dying, that is one too many. 
But the 5,000 figure, just so we know, is that accurate as of 
today? Every month are 5,000 kids still dying?
    Mr. Conyers.  This is a UNICEF figure.
    Mr. Smith.  I know that, but in terms of their study, from 
at least the UNICEF report I read, that dates back a bit. But 
if you could, just for clarity?
    Mr. Conyers.  For clarity, I can repeat that UNICEF still 
stands by their astounding estimate of about 5,000 children 
dying every month.
    Mr. Smith.  That would be this February and March?
    Mr. Conyers.  Yes.
    Mr. Smith.  OK. Just so we have that.
    Mr. Conyers.  It is an incredible figure; I agree with you. 
By the way, I want to underline my support for everything you 
have said about Hussein getting the better end of this deal. We 
are in a quandary. If this were easily resolved, we would not 
have to hold a hearing.
    I would really like to continue to urge you, Mr. Smith, to 
think about another mechanism, because the oil for food program 
does not promote enough, even with the 100 percent improvement 
in allotments, to make really a serious difference. I think 
that we have to help the U.N. craft another way.
    Mr. Smith.  I appreciate it.
    Mr. Conyers.  Thank you.
    Chairman Gilman.  Thank you. Ms. Lee.
    Ms. Lee.  Thank you, Mr. Chairman.
    First, let me just say to Mr. Conyers, thank you very much 
for being here and for your leadership. I have joined you for 
the last couple of years in signing the letter to the 
Administration asking for the de-linking of the military and 
the economic sanctions. Certainly for me, we understand who 
Saddam Hussein is.
    We also understand that there are 5,000 children a month 
dying. It is a calculated risk because, like you say, who knows 
what? We can only anticipate that less people would die, less 
children would die, if economic sanctions were lifted. I think 
it is worth the risk, because in no way should our country be 
even in part allowing these numbers to die before us. It is 
just an immoral position, I think, to take.
    Let me just ask you, in terms of what is going on in Iraq 
with regard to the military buildup, if we were to lift 
economic sanctions--let me put it another way. From your point 
of view, does Saddam Hussein or does the international 
community bear the responsibility for the deaths of these 
children in Iraq? Or do you believe that is a question that 
cannot be answered, that we just have to move forward to try to 
stop it?
    Mr. Conyers.  There are people on both sides of it. Let me 
just put it to you frankly. It is our approved policy that is 
doing this. The fact that Hussein is aggravating, manipulating, 
taking advantage of it, and playing it as a crude political 
tool at the expense of his own people, should not in any way 
dissuade us from reconsidering the policy.
    What I am suggesting is that the damage that is being done 
is so great that there is no way within the oil-for-food 
program that we can ever turn these numbers substantially 
around. What we are doing, in my judgment, is committing war by 
another means. It is on the most helpless of a civilian 
population. I would like to help these people buildup. You know 
what that is doing, for those of you who have been over there, 
what this is doing for our relationships with the people 
themselves, who keep asking, why are they doing this to us?
    I think it would give us a new way to go in there. I would 
be the first to say if for any reason it does not work or they 
are so duplicitous that it will not ever happen, then I would 
be willing to withdraw. We have enough creativity to not get 
hooked on a program that has led two administrators of the 
program to throw up their hands in disgust.
    Chairman Gilman: Thank you, Ms. Lee. Dr. Cooksey.
    Mr. Cooksey.  Thank you, Mr. Chairman, and thank you, Mr. 
Conyers. I really want to ask a question of you and everyone of 
the panel in the room. We have had sanctions in Iraq and they 
have not worked. I, too, am concerned about it from a 
humanitarian standpoint, particularly the children. But, the 
weakest in society are the children and the very elderly.
    We have done the same thing in Cuba since 1959 or 1960. My 
question is, is there a model out there that we have used or 
that has been used elsewhere in the world that has worked to 
get rid of a dictator?
    Mr. Conyers.  Yes, the South African anti-apartheid regime, 
but that model will not work in this case because, there, the 
African people were totally united with ANC. There was a coming 
together, which of course Hussein has skillfully prevented from 
happening in Iraq. His people are not only not united, but they 
are seriously divided; thanks to him. So he has made it 
impossible to follow that model.
    With our pursuit of this plan, we are also taking on the 
angst of the Iraqi people. It is clear to them that they have 
no allies outside of Iraq. It only aggravates the problem, from 
my view. That is why I want to reiterate what you said, what 
Barbara Lee said: continue the military sanctions. As a matter 
of fact, we might be able to tighten them. I think we could 
come around on the other hand and begin to show to the people 
that we are revising our position on this policy. It is a U.N. 
policy. It is not American made, but is American supported, and 
we must be willing to revisit this policy.
    Chairman Gilman.  Thank you.
    Mr. Cooksey.  Could I yield to Mr. Berman?
    Did you have another example? You were about to say 
something?
    Mr. Berman.  No, I was thinking one can make a case that 
the sanctions and the prohibitions on new investments in South 
Africa helped persuade the business community there to lobby, 
to come down against apartheid and the apartheid government, 
and played a major role in creating the dynamic by which Nelson 
Mandela was freed, and they went to free elections.
    Mr. Conyers.  Of course, there is not any private sector. 
It is a different dynamic going on in Iraq. This is the 
problem.
    Chairman Gilman.  Mr. Delahunt?
    Mr. Delahunt.  Yes, thank you. Thank you, Mr. Chairman.
    Mr. Conyers, on this side.
    Mr. Conyers. Good morning.
    Mr. Delahunt.  I think the point about the sanctions in 
South Africa that should be made is that those sanctions were 
crafted and imposed in consultation with the ANC, with those 
forces in South Africa that were attempting to overthrow the 
apartheid system, the apartheid regime. But that, in my 
opinion, has not occurred, and I do not know if it is feasible, 
within Iraq nor in Cuba. I have visited Cuba on several 
occasions. I have spoken with dissidents there. The ones with 
whom I have discussed the issue of the sanctions, indicate that 
it does not accrue to their benefit. I think that is important.
    In this particular case, if I am clear as to your position, 
it is that. I would hope that when the Administration witnesses 
come before us to testify, that they speak first to the issue 
of the validity of that 5,000-a-month figure. I think that is 
very important, because it is something that no matter what, if 
we can do anything to reduce that figure, I think it is a moral 
obligation on the United States to do.
    It would be your position if that figure is accurate, that 
if we lifted the economic sanctions, then the burden and the 
onus would then be on Saddam Hussein and the regime to 
distribute, in a fair and equitable manner, resources to reduce 
that figure. If it did not, he then would lose support, popular 
support, and the battle of public opinion within the country. 
Is that your position?
    Mr. Conyers.  Yes. His credibility would then legitimately 
come under the attack that it has escaped.
    Mr. Delahunt.  It would become very clear to the Iraqi 
people that it was not the Great Satan, it was, in fact, the 
regime itself that was responsible for the tragedy that is 
occurring.
    Mr. Berman.  Would the gentleman yield?
    Mr. Delahunt.  I yield to Mr. Berman.
    Mr. Berman.  Could I just give the opposite side of that 
view? First of all, these sanctions were imposed to achieve 
certain things, first and foremost of which is to help ensure 
the elimination of a program of weapons of mass destruction. 
They are not essentially designed to make Saddam fall.
    There are other aspects of U.S. policy that are maybe 
directed toward that. The Chairman has been heavily involved in 
some of those issues. But this was evolved for the possibility 
of the lifting of sanctions, and was held out to the Iraqi 
government, based on their willingness to go along with a 
serious and intrusive inspection program to ensure that these 
programs were not going on.
    We have no idea what the Iraqi people think, because Saddan 
uses every means of repression and suppression, up to and 
including mass executions and murder, to create the 
demonstrations of support for his regime, the squashing of 
dissidents and all of that.
    Leading up to the Gulf War, the argument of people who 
opposed the war was, do sanctions. The people who decided to 
support the war were saying, we do not think sanctions are 
going to achieve getting them out of Kuwait. But now the 
sanctions are focused on getting back in a meaningful 
inspection program, and then, with the possibility then that 
sanctions would be lifted.
    It is possible that if you took away the oil-for-food 
program and allowed free trade and donations in food, that 
resources would then go to otherwise better the lives of the 
Iraqi people for infrastructure. I believe it is just as equal 
or an even greater possibility that, that program will be used 
to even more quickly rebuild the military, pursue the weapons 
of mass destruction program, and free-up those resources from 
oil sales for that purpose. That is the other side of the 
debate.
    Mr. Conyers.  Yes, sir. That's not an impossible belief. 
The fact of the matter is, the lifting of the economic 
sanctions in no way interferes with stopping them from their 
nuclear and military capabilities, because military sanctions 
would continue. We will be giving ourselves an advantage that 
we have never enjoyed before, one of preventing civilian 
deaths, while also preventing military capabilities.
    If anything, Howard, I would be for increasing military 
sanctions in exchange for lifting of the economic sanctions. We 
had indications from at least the second in command, if that 
means anything, that this could be a way out of our dilemma. It 
would give them the chance that they need to create massive 
capital to buildup their oil reserves and production 
capability, which will always be kept down, the way we are 
doing it. Plus we have this hugely immoral policy, that to me 
does not square us with our role in the United Nations and 
around our country.
    Chairman Gilman.  The gentleman's time has expired. Mr. 
Sanford.
    Mr. Sanford.  Thank you, Mr. Chairman.
    I would simply say that I agree with a lot of what you have 
said. The one component that I would disagree with, and would 
just be curious to hear your thoughts on, would be the idea of 
lifting economic but leaving in place military sanctions. It 
seems to me, as an advocate of our armed forces, right now we 
have something that is providing a lot of wear and tear on our 
military forces, something that is providing a lot of expense 
to the American taxpayer. That is this enforcement of the no-
fly zones, which were originally put in place to uphold U.N. 
Security Council Resolution 688.
    This was basically to help in easing the repression of 
Iraqi forces. It has not done that. As a result, I think 
American pilots go around blowing holes in the sky. Every 
morning, they will leave Turkey at 4 a.m., F-16 pilots out of 
Turkey, be up at first sunlight there over the northern watch, 
and roll in to provide enforcement of that, quote, ``no -fly 
zone.'' It is, in essence, a patchwork that has proved to be, I 
think, ineffectual in really making that difference that is 
called for in U.N. Security Council Resolution 688. So I would 
just be curious as to why the one, but not the other?
    Mr. Conyers.  That is why I said that we may have to 
strengthen our military sanctions, and that would include 
revisiting them to develop something that might be more 
effective. So I am not asking that we do anything but continue 
and maybe even strengthen those. But as to this other part, Mr. 
Sanford, the humanitarian part, we are losing the war with the 
people. This compares with South Africa, where they had a 
feeling that many people in America and its government, 
finally, and other governments, were in the struggle with them.
    That feeling does not exist in Iraq and cannot exist with 
the tactics that Hussein is using, which may be considered far 
more vicious than the ones that were applied in South Africa.
    So I do not have a strategy for the military sanctions, but 
I do think they should be continued or tightened. By the way, I 
do not know how long Mr. Delahunt was sitting over there, but I 
commended the Chairman and Ranking Member for their 
participation in our efforts to get free and fair elections in 
Haiti. I want to include his name in that for the record.
    Mr. Delahunt.  Thank you.
    Chairman Gilman.  If there are no further questions of Mr. 
Conyers, we want to thank Congressman Conyers for taking the 
time and for sharing his thoughts with us.
    Mr. Conyers.  I am honored to be before the Committee. 
Thank you so much.
    Chairman Gilman.  Thank you. We will now proceed with the 
balance of our hearing. Mr. Gejdenson.
    Mr. Gejdenson.  Thank you, Mr. Chairman. I will be brief. I 
am concerned of the erosion of the international consensus on 
the Iraq policy; especially within the Security Council. It is 
clear that Saddam Hussein would use any additional resources to 
rebuild his arsenal of mass destruction and, frankly, try to 
increase his ballistic missile capability.
    I think that we have to recognize that if there is a 
diminution of support in the Security Council and elsewhere in 
this country for this policy, it will not be sustained over the 
long haul. Just because we do not have good options, does not 
mean that we ought to stick with the policy as it is.
    In every conversation that I have had with General Zinni, 
with Arab leaders from the region, the opposition is not taken 
seriously. I know this Congress spends a lot of time wanting to 
arm and in other ways facilitate the opposition. Even the 
Administration announced today that it will grant $260,000 to 
the Iraqi National Congress. My sense of a leadership that 
spends most of its time in fancy hotels in London is that they 
are not the ones that are going to lead a revolution on the 
ground in Iraq.
    We do have to build a consensus with Iraq's neighbors, as 
difficult as that is and as often frustrating as it is. It is 
clear that Saddam Hussein, with his present resources, is not 
paying attention to his people's needs. It is hard to believe 
that even if he has more oil and more resources, that he would 
use it for his own citizens instead of building billion-dollar 
palaces and trying to get more weapons. But again, we will not 
be successful unless we build broad-based support for our 
policy.
    I would like to applaud the president and Secretary 
Albright for the steps they have taken toward Iran, made 
easier, obviously, by Iran's own moderate actions and the 
elections of moderate officials to their parliament. But I do 
think we need a new approach and a new look at this policy in 
Iraq, so that we can have a broad-based political response here 
in the United States and overseas.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gejdenson appears in the 
appendix.]
    Chairman Gilman: Thank you, Mr. Gejdenson.
    I will now ask our witnesses to come forward. Mr. Welch, 
Ms. Romanowski, Ambassador Jones. Our panel of witnesses today 
is headed by C. David Welch, Assistant Secretary of 
International Organization Affairs for our Department of State. 
Mr. Welch has served in that position since October 1998, after 
most recently serving as principal Deputy Assistant Secretary 
in the Bureau of Near Eastern Affairs. Mr. Welch has had a long 
career in foreign service prior to this, serving us in a number 
of posts overseas in the Middle East.
    We welcome you, Assistant Secretary Welch. You may put your 
full statement in the record and abbreviate it, or whatever you 
deem appropriate.

  STATEMENT OF HONORABLE C. DAVID WELCH, ASSISTANT SECRETARY, 
 BUREAU OF INTERNATIONAL ORGANIZATION AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Mr. Welch.  Thank you, Mr. Chairman. I thank you and your 
colleagues for holding this hearing this morning. Mr. Chairman, 
with your permission, I would like to use my statement this 
morning in view of the importance of this issue, the gravity of 
some of the things said, in particular about Administration 
policy, so that I may give you as comprehensive a look at this 
issue as I think it merits.
    Chairman Gilman.  Please proceed.
    Mr. Welch.  I am going to speak on behalf of the State 
Department and the Administration. I am joined by my colleague 
Beth Jones, who covers overall policy toward Iraq, and 
including toward the Iraqi opposition. Ms. Romanowski, from the 
Department of Defense, can address our military posture and our 
security presence in the area.
    I am going to focus in these introductory remarks on two 
areas. First, the humanitarian situation in the country, 
including the balance between the impact of sanctions and the 
benefits of the oil-for-food program. I would also like to say 
a few words on disarmament, prevention of rearmament, and what 
we expect from what is called UNMOVIC over the next few months.
    Mr. Chairman, the humanitarian situation is a complex 
subject, and we are concerned about the recent flow of 
misinformation and biased assertions from several sources that 
has made it difficult to maintain sight of what our policy 
really is and what is really happening on the ground in Iraq. 
We hope to provide some clarification today.
    U.S. policy toward Iraq has followed a consistent course 
since the liberation of Kuwait in January 1991; and whatever 
you might have read in the papers lately, there is no sea-
change in the offing. Our policy is based on the objective 
judgment that the regime of Saddam Hussein poses a continuing 
threat to regional peace and security, which must be contained.
    Again, despite what you may have seen in the press, 
containment remains a cost-effective and successful policy. 
U.N. sanctions are extremely important and must continue until 
Iraq complies with its obligations under the Security Council 
resolutions. Let me state for the record that we do not expect 
Iraq to meet that standard any time soon.
    In fact, we doubt that Iraq will take the sensible steps 
necessary to obtain the lifting or the suspension of sanctions, 
as long as Saddam Hussein is in power. Those sanctions do not 
target the civilian population, however, and have in fact never 
restricted the importation of basic medicines and food.
    The United States has focused on addressing humanitarian 
needs in Iraq since the immediate aftermath of Operation Desert 
Storm in 1991, when brutal military repression displaced tens 
of thousands of civilians in northern Iraq. We responded with 
Operation Provide Comfort, a U.S.-led coalition effort that 
provided food, shelter, and other forms of disaster assistance 
on a massive scale.
    The coalition also instituted a no-fly zone in the north in 
1991, and another one in the south in 1992. That has contained 
the Iraqi military and prevented any repetition of large scale 
use of force against civilians. In the Security Council, we 
have championed the humanitarian interests of the Iraqi people, 
and we continue to do so as we speak. Let me cite a few 
examples.
    In April 1991, we helped shape Security Council Resolution 
688, which demanded an end to Iraqi repression of civilians and 
provided part of the rationale for the no-fly zones. In August 
1991, we played a leading role in drafting Resolution 706, 
which included the original oil-for-food program, a program 
Iraq promptly rejected. Let me repeat that date: August 1991. 
In May 1995, we cosponsored Resolution 986, which expanded and 
fleshed out the oil-for-food concept. You will recall the 
tragically slow evolution of that concept. Iraq rejected that 
resolution outright for at least another year, and then slow-
rolled it for six more months, so that the first delivery of 
humanitarian goods under that resolution did not occur until 
March 1997; three years ago. Some critics are attempting now to 
portray oil-for-food as part of the humanitarian problem in 
Iraq. In fact, it is a solution whose implementation was long 
delayed by the Iraqi regime and whose full potential is only 
now being approached.
    In February 1998, we supported Resolution 1153, which 
expanded that oil-for-food program to $5.2 billion in oil 
export revenues during each six months; over $10 billion a 
year. In December 1999, we supported Resolution 1284, which 
removed that ceiling on the value of oil exports authorized to 
meet humanitarian needs in Iraq. That resolution also included 
numerous provisions to improve the efficiency of oil-for-food.
    I want to emphasize that the need to balance the impact of 
sanctions and the benefits of the oil-for-food program is not a 
new challenge for U.S. policy. Sanctions were imposed for valid 
reasons, have been in place for nine and one-half years, and 
are likely to continue for some time. Oil-for-food has been in 
place almost exactly three years, during which oil prices have 
fluctuated, and the program itself has been constantly 
reassessed and adjusted. That process of assessment and 
adjustment is ongoing, as indicated in Resolution 1284, and 
will certainly continue.
    Sanctions are not aimed at the Iraqi people. The bottom 
line is this. We believe that oil-for-food, properly managed, 
can effectively mitigate the impact of sanctions on Iraq's 
civilian population for as long as sanctions on the Iraqi 
regime remain in effect. Success will require the U.N. to do 
the best possible job of administering the program.
    Similarly, Iraq will have to be pressed to do its part, 
cooperating with the program, rather than seeking to discredit 
it, rather than seeking to circumvent it, and rather than 
attempting to eliminate it. Maintaining the proper balance will 
never be easy, but we believe it is an achievable result and 
certainly a result worth the utmost effort over the long haul.
    Criticism of sanctions is understandable. But we believe 
much of the recent criticism has been misplaced. In particular, 
those who see negative consequences from sanctions and 
advocating lifting sanctions as the only solution overlook at 
least three important points.
    First, the Saddam Hussein regime is among the most brutal 
and systematic violators of human rights in modern memory. The 
most recent report of the U.N. Special Rapporteur For Human 
Rights noted that the gravity of human rights in Iraq has few 
parallels since the end of the second World War.
    Second, sanctions deprive Saddam Hussein of the financial 
wherewithal to pursue his manifest goal of acquiring and using 
weapons of mass destruction. Saddam, deploying WMD, would be 
the worst imaginable humanitarian outcome for the Iraqi people 
and for all the peoples of the region.
    Third, lifting sanctions would enable Saddam to rebuild his 
military and put his WMD programs on the fast track, but would 
not guarantee a better life for the average Iraqi. On the 
contrary, conditions for many Iraqis, especially in the north, 
would deteriorate dramatically if oil-for-food and the U.N. 
presence disappeared.
    Let me be crystal clear. Providing resources to Saddam 
Hussein would not mean relief for the Iraqi people. Conversely, 
providing relief to the Iraqi people is not the same as helping 
Saddam. Let me explain that.
    First, Saddam Hussein's perennial spending priority is 
military development and WMD. It is not civilian well-being. 
Lifting sanctions would simply enrich the regime and enable it 
to pursue Saddam's spending priorities. Lifting sanctions would 
not help the Iraqi people.
    Second, we also hear criticism from the other side, from 
those who say that oil-for-food is in fact helping Saddam 
Hussein. Just as providing more resources to the Iraqi regime, 
for example by lifting sanctions, would not benefit the Iraqi 
people, it is our view that oil-for-food resources provided to 
the people do not benefit the regime. On the contrary, 
providing humanitarian assistance to the Iraqi people is 
essential to maintaining international support for sanctions on 
the regime.
    Oil-for-food is having a clear and measurable impact. 
Nutrition has improved. Per capita intake is up from 1,300 
calories per day before the program began to over 2,000 now, 
thanks to a ration basket, the U.N. ration basket, that is 
augmented by locally grown foods. Food imports are now at pre-
war levels. In the year before the program began Iraq imported 
about $50 million worth of medicine.
    Over the past three years more that $1 billion worth of 
medicines have been approved. Similarly, over a billion dollars 
worth of goods for the water, sanitation, electrical and 
agricultural sectors have been approved. The impact has been 
the greatest in the northern provinces. The reason for that is 
simple. The U.N. manages the program there without interference 
from the regime.
    For example, the same UNICEF study others have cited this 
morning showed that infant mortality in the north has fallen 
below pre-war levels. Yet in south central Iraq, where the 
Iraqi government handles distribution of oil-for-food goods, 
the study has revealed a disturbing rise in child mortality to 
more than double the pre-war level. These numbers show that 
oil-for-food can meet the needs of the Iraqi people, if 
manipulation by the regime can be overcome.
    Let me say a few words about how the United States can make 
this program more effective. We have been accused recently of 
having too many holds or having the wrong holds on contracts 
proposed under this program. Of course there are those in 
Baghdad, and I have to say even in the Security Council, who 
seem to believe that neither the United States nor any member 
of the Iraq Sanctions Committee should put any contract on hold 
for any reason.
    Our goal is to help the oil-for-food program succeed. With 
that in mind, we want to approve every contract we can and do 
it as quickly as we can. But there is another goal that is 
equally as important, and that is to deny Saddam Hussein inputs 
for his weapons of mass destruction and military programs. That 
goal makes a heavy demand on us, as it can mean the painstaking 
review of each and every contract. This is a responsibility we 
take seriously.
    Our rigorous and responsible approach has won plaudits from 
some smaller countries in the Sanctions Committee, countries 
that lack the resources and the expertise which the U.S. can 
apply to this process. It has also elicited criticism from some 
larger Members of the Committee which have the resources and 
the expertise, but have chosen to turn a politically, or even 
perhaps commercially, blinded eye to possible dual-use items 
included in oil-for-food contracts.
    Three Security Council Member States have one-third of all 
oil-for-food contracts. There is an orchestration of complaints 
about holds, often joined by those who are motivated for 
commercial gain. Ninety percent of these contracts have been 
approved, but the number of our holds has mounted over the past 
year for a variety of reasons. Some of these contracts lack 
adequate information, and we are unable to act on them until we 
get details from those who have submitted them.
    The program's revenue has grown as oil prices have gone up. 
There is an accelerating flow of contracts that has crowded our 
review process. However, it is our view that the holds that we 
have put on have had minimal impact on the humanitarian bottom 
line to date. Nonetheless, we agree that while we must be 
vigilant, we must also strike a balance with legitimate 
humanitarian concerns.
    We are currently examining our contract review procedures 
to ensure that they appropriately reflect our twin priorities: 
maximizing assistance to the people while denying the regime 
access to goods it could use to reconstitute its military and 
WMD programs. We are also seeking to enhance the U.N.'s 
capacity to monitor potentially sensitive items, such as 
electricity generating equipment or water purification plants; 
to ensure that such items, if approved, are installed in the 
approved location and used for the approved purpose.
    Let me turn briefly to the WMD issue. A major portion of 
Resolution 1284 deals with the creation of UNMOVIC, the U.N. 
Monitoring, Verification and Inspection Commission, as a 
subsidiary body of the Security Council and a successor to 
UNSCOM. After consultation with council members, the secretary 
general has appointed Mr. Hans Blix to serve as the executive 
chairman of this new body.
    My colleague, Robert Einhorn, Assistant Secretary for Non-
proliferation, and I had the opportunity to meet with Mr. Blix 
shortly before he took up his duties on March 1. As former head 
of the International Atomic Energy Agency, Dr. Blix is fully 
qualified for the sizable task he faces, and he has adopted a 
serious and methodical approach that seems well-suited to the 
task. He is currently structuring his organization and 
assembling his staff and will submit an organizational plan to 
the Security Council in mid-April.
    He will then proceed with lining up potential inspectors 
with the requisite technical expertise to resume inspection and 
monitoring activities in Iraq. Baghdad, meanwhile, has publicly 
rejected Resolution 1284 and ruled out the return of U.N.-
mandated weapons inspections teams, but that, I do not think, 
is the final word. Should Iraq reconsider, as it has on several 
other resolutions, and allow UNMOVIC in, we expect Dr. Blix and 
his teams to be robust in carrying out the mission it has 
inherited from UNSCOM. The United States will provide all 
possible support for that.
    Thank you, Mr. Chairman. Sorry to go on. I wanted to get 
all this into the record.
    [The prepared statement of Mr. Welch appears in the 
appendix.]
    Chairman Gilman.  Thank you, Mr. Welch.

 THE HONORABLE A. ELIZABETH JONES, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    I'm pleased to introduce Ambassador Elizabeth Jones, who is 
a career member of the senior Foreign Service class of career 
ministers. She took over as Principal Deputy Assistant 
Secretary in the Department's Bureau of Near Eastern affairs in 
October 1998, after having served as Ambassador to the Republic 
of Kazakhstan. She has held many other Washington assignments, 
and her overseas' assignments have been concentrated in the 
Middle East, South Asia and Germany. We welcome Ambassador 
Jones for any comments she would like to make.
    Ms. Jones.  Thank you, Mr. Chairman. I associate myself 
with the comments made by Assistant Secretary Welch, and I 
would like to conserve some of our time and wait for questions.
    Chairman Gilman.  Thank you very much.
    We now introduce Ms. Alina Romanowski, the Deputy Assistant 
Secretary of Defense for Near Eastern and South Asian Affairs 
in the office of the Assistant Secretary of Defense for 
International Security Affairs, serving as the principal 
adviser to the Secretary of Defense on matters relating to 
those areas of the world. Her prior service has been both in 
Washington and in the field, having served as country director 
for Israel after coming to the Department of Defense from 
service with the CIA as an intelligence analyst in the Near 
East and South Asia region.
    We welcome Ms. Romanowski.

ALINA ROMANOWSKI, DEPUTY ASSISTANT SECRETARY, NEAR EASTERN AND 
        SOUTH ASIAN AFFAIRS, U.S. DEPARTMENT OF DEFENSE

    Ms. Romanowski.  Thank you very much, Mr. Chairman. I have 
submitted a written statement for the record. Also, in the 
interest of time, I will be here to take questions on the 
military aspects of our policy on Iraq.
    [The prepared statement of Ms. Romanowski appears in the 
appendix.]
    Chairman Gilman.  Thank you, Secretary Romanowski.
    We'll now turn to questions.
    Mr. Crowley.  Mr. Chairman.
    Chairman Gilman.  Yes, Mr. Crowley.
    Mr. Crowley.  Unfortunately, I have to leave. I just want 
to thank you for holding these hearings.
    Chairman Gilman.  Thank you. Do you have a question you 
want to address to our witnesses?
    Mr. Crowley.  I actually have to leave right now. I have a 
statement to read into the record.
    Chairman Gilman.  Without objection, the statement will be 
placed in the record.
    Mr. Crowley: Thank you very much.
    [The prepared statement of Mr. Crowley appears in the 
appendix.]
    Chairman Gilman.  My first question is directed to 
Secretary Welch. In the more than three months that have passed 
since the approval of our U.N. Security Council Resolution 
1284, it has become obvious that UNMOVIC, the new U.N. weapons 
inspection agency, is going to have trouble getting its 
inspectors back into Iraq at any time in the near future. In 
particular, the requirement for Security Council approval, 
first of the appointment of the executive chairman of UNMOVIC, 
then of the executive chairman's organizational plan for 
UNMOVIC, and then of UNMOVIC's work program, sets up repeated 
confrontations within the Security Council that are certain to 
delay the resumption of weapons inspections in Iraq.
    Indeed, some analysts have looked closely at the resolution 
and concluded it must have been structured to make certain that 
Saddam is not confronted with the request from UNMOVIC to admit 
inspectors into Iraq until after our Presidential election next 
November. In order to reassure us that this is not true, can 
you tell us when you expect UNMOVIC to ask Saddam Hussein to 
admit inspectors for the agency?
    Mr. Welch.  In Resolution 1284, there were a number of 
questions asked of the new executive chairman, particularly 
with respect to organization. That is the plan that he will 
present in, I guess, about three weeks. April 15th is the 
deadline for that. After that plan is presented, if it is 
approved by the council, UNMOVIC is up and ready to operate. 
The only thing inhibiting its operation, then, in the full 
sense of the word, would be whether it can do it inside Iraq.
    What stops that right now is the Iraqi government has not 
accepted, indeed it has rejected, Resolution 1284. If they were 
to accept Resolution 1284, and the council has approved the 
organizational plan, then the monitoring and inspection 
activity could resume in Iraq just as soon as they were able to 
get there, which of course could be any time after April 15th 
and certainly well before November.
    Chairman Gilman.  Can you tell us when you expect the 
council to approve the UNMOVIC plan?
    Mr. Welch.  The council has not actually gotten it yet, Mr. 
Chairman. It is hard to predict how that debate will go. It 
depends on what is in the plan. The debate for the selection of 
an executive chairman, which was the other deadline contained 
for Council action in 1284, was easily met and that deadline 
was satisfied. I have had some experience with working on the 
Security Council in these issues. They frequently do cause a 
lot of debate.
    I would imagine that the other council members have the 
same degree of confidence we do in Dr. Blix. The question of 
organization is not going to divert attention for that long.
    Chairman Gilman.  What would you estimate to be an outside 
date for final approval of UNMOVIC's organizational plan and 
work program?
    Mr. Welch.  Again, I cannot say. But, typically the council 
acts reasonably rapidly on these things. As I said, the only 
example we have under this resolution is the selection of the 
executive chairman. Most of the debate took place before the 
nomination. Once the nomination was received, consensus was 
easily had.
    Chairman Gilman.  Conservatively speaking, what are we 
looking at by way of a timeframe?
    Mr. Welch.  I would say within a few business days to look 
at the organizational plan. I would add, that should be 
juxtaposed to what is our estimate of the likelihood of Iraqi 
acceptance of the resolution in any near timeframe. That 
estimate I cannot give you. That is probably a more important 
impediment to them restoring their activity in Iraq.
    Chairman Gilman.  So it could be at least several months, 
is that correct?
    Mr. Welch.  That is entirely in the hands of the Saddam 
Hussein regime.
    Chairman Gilman.  Ambassador Jones, on March 3rd of this 
year, the leadership of the Iraqi National Congress sent a 
letter to Secretary Albright, proposing that our Nation 
establish a cross-border humanitarian aid program into Iraq 
that should be run by the Iraqi National Congress. Such a 
program would resemble the cross-border humanitarian aid 
program that we used to have in Afghanistan, back when our 
Nation was helping the Afghans free themselves from Soviet 
occupation. In general terms, what is the Administration's 
reaction to that proposal?
    Ms. Jones.  The Administration would certainly welcome 
anything that improves the humanitarian situation for the 
people inside Iraq. That is the primary reason that we worked 
so hard on the various elements of 1284 that Assistant 
Secretary Welch has just described. What I cannot say is what 
kind of cross-border system might work the best. I would not 
want to equate the situation in Iraq with the situation in 
Afghanistan, in that respect.
    It is certainly a proposal that we have been working on 
with Mr. Chalabi, have been discussing with him and with some 
of his colleagues and would welcome discussing further with the 
Committee.
    Chairman Gilman.  Do you expect to have some proposal 
before us at some reasonable date?
    Ms. Jones.  We have not gotten as far as drafting a 
proposal, no.
    Chairman Gilman.  Ms. Romanowski, are we in fact 
accomplishing anything of military significance with our 
repeated air strikes in response to the Iraqi threats to our 
aircraft patrolling the no-fly zone?
    Ms. Romanowski.  The short answer is yes, Mr. Chairman, I 
think we are. The monitoring of the no-fly zones is actually 
accomplishing two important things. One is to ensure that Iraqi 
aircraft cannot, in fact, fly and be used to repress the 
civilian populations in the areas where the no-fly zones are.
    There is also an added benefit. Because the Iraqis are 
continuing to challenge our presence there, we are, in our 
response, degrading the Iraqi air defense capabilities over 
time. It also allows us to monitor, importantly, the presence 
of the Iraqi military forces to determine if they are changing 
their posture and becoming an even greater threat to Iraq's 
neighbors.
    Chairman Gilman.  Are we inflicting any substantial damage 
on Saddam, particularly if we are dropping bombs filled with 
cement, as has been reported in the press? Has this been really 
an effectual program?
    Ms. Romanowski.  To my knowledge, we are not dropping bombs 
with cement. We are responding to Iraqi provocations and 
threats to our coalition partners. We are responding to that. 
We are, in fact, degrading Iraq's air defense capabilities.
    Chairman Gilman.  Seventy Members--and this is for the full 
panel, anyone who cares to respond--70 Members of the House 
recently sent a letter to the President calling on him to end 
the economic embargo in Iraq, but to keep in place the military 
embargo. The U.N. Security Council Resolution 1284, which was 
adopted last December, eliminates the ceiling on Iraqi oil 
exports and directs that future Iraqi imports of a list of 
humanitarian items, like food, medicine, and medical supplies, 
be exempt from U.N. review.
    After that resolution is fully implemented, will there 
still be, in any meaningful sense, an economic embargo in place 
against Iraq with regard to trade in items that are of no 
military significance? Mr. Welch, would you care to respond to 
that?
    Mr. Welch.  Yes, thank you, Mr. Chairman. Let me also in my 
answer attempt to address some of the concerns that 
Representative Conyers raised. First, I think I have a 
difference with him on what the fundamental problem is. The 
fundamental problem, in our view, is the noncompliance of the 
Saddam Hussein regime with its obligations under Security 
Council resolutions. Because of that extended noncompliance, 
sanctions have remained on.
    Because sanctions are Saddam's primary target, the reason 
that he has them as his primary target is he wants the money. 
Because he wants the sanctions lifted and access to his money 
again, he will exploit anything, including the suffering of his 
own people to that end. There is a need to address the 
suffering of the Iraqi people, but lifting the sanctions is not 
the answer. It is too dangerous. It will not work, and we have 
a better idea.
    It is too dangerous, because the reason you have control of 
revenues through sanctions is to oblige Iraq to disarm and to 
prevent its rearmament. If he gets access to the revenues, you 
are not going to succeed at either. It will not work because he 
does not have any intention of using these revenues for the 
benefit of his people. We have a better idea because, yes, in 
1284 there is a whole broadening of the humanitarian program 
laid out that can do that more effectively.
    It is meaningful in the sense of maintaining sanctions. Why 
is that? Because the U.N. controls that program and Iraqi 
revenues, not the regime. As long as that is the case, we will 
see an answer which, I will be the first to admit, has been 
imperfect in the operation of this program so far, but can be 
better to the situation on the ground. Conversely, if you take 
the other option of lifting the sanctions, you are not going to 
succeed in any of those objectives.
    Chairman Gilman.  Thank you. Mr. Gejdenson.
    Mr. Gejedson.  Thank you. My assessment of our success rate 
with insurgences or opposition groups in a military sense, at 
least in my time here, has not been all that successful. The 
Contras did not work out all that well. Before that, the Bay of 
Pigs was not exactly a success. Even if the Afghan guerrillas 
got the Russians out, I am not sure that at the end of the day 
we have ended up with a better situation there. So first I 
would like to ask Ms. Romanowski, and I have talked to General 
Zinni, is the opposition even potentially a military force?
    Ms. Romanowski.  The opposition, I believe, needs a lot of 
training in the areas that we have identified to make them into 
an effective, external political opposition and political 
voice. We are looking at providing them training to make them 
more effective in those areas. In our discussions with them, it 
is clear that they also feel that the kind of training that we 
are offering them will provide them some benefits. We are 
focusing on that.
    Mr. Gejdenson.  What date would you estimate in this plan 
they would be ready to militarily confront Saddam Hussein? In 
this millennium or the next?
    Ms. Romanowski.  I would not want to put an exact date on 
that.
    Mr. Gejdenson.  Thank you. It was a very good answer. I was 
getting lost, which is why I have to interrupt you. Ambassador 
Jones, at this point within Iraq, is there a groundswell of 
support for the opposition?
    Ms. Jones.  I think it is probably very difficult to 
overstate the amount of repression that there is inside Iraq. 
There is no question that there are people who would like very 
much, a lot of people would like very much, to come out from 
under that repression, to come out from under the Saddam 
Hussein regime. That has been the case for a very long time, 
certainly since he first took over and from the days that I 
lived and worked there.
    Mr. Gejdenson.  But right now, momentarily, they cannot do 
anything and politically they cannot do anything, because the 
repression is very effective.
    Ms. Jones.  We actually do not know that.
    Mr. Gejdenson.  He kills people that look funny.
    Ms. Jones.  That is exactly right.
    Mr. Gejdenson.  All right.
    Ms. Jones.  He kills anybody before they even have a 
thought in their head about what they might do.
    Mr. Gejdenson.  And anybody near that person, just in case 
they might have been contagious.
    Ms. Jones.  That would be correct.
    Mr. Gejdenson.  So it seems to me we feel good around here 
and we say we are going to give all this money to the Iraqi 
opposition. I am sure they are enjoying their stays in London, 
where the leaders seem to be for a large part of time. But at 
the end of the day, I see absolutely no reasonable hope that 
Iraqi opposition will have any impact on our policy, except to 
make Congress feel like we are doing something.
    Then it seems to me the next place we have to look at is 
the embargo. Now, we all know what happens in the debating 
process. If you put up a proposition, and we can demonstrate a 
few failures, it often undermines the public's confidence in 
the whole process. It is not right, but that is how it works. 
When you add to that a recalcitrant Security Council, the 
reality is, that this 15-Member decisionmaking group, including 
us, on what goes through to the Iraqis makes us look foolish.
    Because the Iraqis are not going to show you the palaces, 
the billion-dollar palaces that Saddam is building. They are 
not going to show you the weapons he is trying to smuggle into 
the country. They are going to show you dying children. They 
are going to say, ``Country A'' in the Security Council held up 
syringes, water, medicine, whatever it was, and that is why we 
are dying.
    So unless you can come up with a better process of getting 
stuff through quickly, without these ``We don't know some minor 
detail, so we are going to put a hold on it,'' that hold then 
ends up being the whole reason Iraqi children die. Now, people 
have told me the Iraqis get, the Iraqis who live in the north 
where we get to distribute or people we trust more get to 
distribute the food, are doing fine. They are not dying. Saddam 
Hussein gets a proportionate share and so theoretically his 
people should not be dying either. But he is beating you on two 
counts. We have a dumb system for approving products going into 
Iraq, so it then shows us is that the whole thing looks kind of 
silly. We have evaporating Security Council support for our 
policies. Frankly, the same problem is happening in the United 
States.
    So I agree with your fundamental assessment. He is a very 
dangerous guy. If he gets free access to lots of cash, he is 
going to spend most of it acquiring weapons of mass 
destruction; and the next hearing we could have here is about 
where we were when Saddam Hussein got the missile and the 
chemical, biological or nuclear weapons that took out some city 
in the Middle East, children and all.
    So we have got to find a way to reshape this policy very 
rapidly, or you are going to find a Congress, an international 
community, that isolates the United States, not Iraq. Last, I 
guess my question is, we have been very good and lucky, but if 
one of America's planes bumps into one of Saddam Hussein's 
antiaircraft missiles, we have got a major problem here.
    He has got an American he can march around. We are heading 
for a Presidential campaign. We have got to get through the 
next six months before some element of rationality will return 
to the discussion here. You have to be very careful with those 
resources, because I think he is a threat to the region. I 
think he is a threat to the Iraqi people. But I do not think 
the present policy gets us there.
    Mr. Welch.  Mr. Gejdenson, thank you for your statement, 
which I will take as confirming the direction that I indicated 
that we ought to go.
    Mr. Gejdenson.  You are all very good at this.
    Mr. Welch.  I have been doing it for some years--
considering our adversaries on this issue, you get a bit of 
training. Mr. Gejdenson, I think at the core of what you said, 
with respect to the implementation of our sanctions policy, it 
ought to be that we find a way to redress these humanitarian 
issues while not losing sight of the responsibility we have not 
to let this cat out of the bag again.
    That is a tough balance to strike. I hear from what you say 
a recognition that when we strike it we ought to, if we are 
going to hold on something, do it for a valid and important 
reason. But also I expect you would agree with me that if we 
are going to release on something, we do it with having had 
some real scrutiny.
    The United States is, I think, the only member of the 
council that rigorously applies this scrutiny. If at the end of 
the day we take some heat internationally for that, frankly, we 
will have to bear that, because it is also our responsibility 
to ensure peace and stability in this region. That is an 
important part of our National security interests.
    Mr. Gejdenson.  I do not want to take up Members' time. I 
would just say it is not a question of heat. Heat, I am always 
happy to take. But being able to sustain a policy is the 
fundamental question here, and not just doing something because 
we, have had this embargo on Cuba now for 40 years. What a 
great success. We are fighting whether a boy spends his time 
with his aunts and uncles or whether he goes back to his 
father.
    It just does not make sense to sustain a policy that is 
isolating the United States, that is losing support in the 
American public, because you are not going to achieve your 
goals at the end of the day. Sometimes you may have to let 
something through, I would argue. If you have not got a good 
damn reason to stop it, let it go. I would rather catch him 
after the fact because we have got to get the international 
community to support something that makes sense and not 
continue on something that does not seem to be working.
    Chairman Gilman.  The gentleman's time has expired. Mr. 
Rohrabacher.
    Mr. Rohrabacher.  Thank you very much, Mr. Chairman.
    First of all, I would like to compliment you on your 
presentation here today. It was comprehensive. I learned a lot. 
The questions that have been asked and the answers here have 
been answered directly. I appreciate the professionalism that 
you have all shown. With that said, let me know that we do not 
have a cat in the bag. What we have got is a rabid dog in the 
bag. If you let the cat out of the bag, it may or may not hurt 
you.
    Saddam Hussein is an animal that could, not only is hurting 
his own people, but would hurt Americans if he can get the 
chance to do so. We cannot afford to let him out of the bag. 
Let me note that when we keep talking about the effects of our 
policies and the effects of what is going on, on the children 
of Iraq, we all sympathize with innocent people.
    Mr. Welch, I think you adequately covered the fact that the 
fault of the suffering of those poor children and the civilians 
in Iraq is not the fault of the people of the United States, 
but the fault of Saddam Hussein himself. I think you said it 
quite well. I think that the statistics that you have shown, 
shows that we are permitting them to have what is necessary to 
feed those children. He is choosing instead to spend that money 
on weapons and to screw his own people. That is terrible.
    We should never have a hearing on Iraq unless we recognize, 
Mr. Chairman, that Saddam Hussein, Saddam insane, Saddam 
Hussein, is still holding hundreds of Kuwaiti prisoners. There 
are hundreds of people that have been taken from Kuwait.
    As a proportion of their population, it is a monstrous 
crime against the people of Kuwait. Anything we do to try to 
stop to change this situation in that part of the world has to 
take into consideration these prisoners that we believe Saddam 
Hussein is still holding. I must ask, is there some evidence 
that Saddam Hussein is still holding many of these Kuwaiti 
prisoners alive, or has he murdered all of them, too?
    Mr. Welch.  Frankly, it is hard to say because the degree 
of their cooperation with that inquiry process has been so 
poor.
    Mr. Rohrabacher.  Which again underscores the nature of 
this regime; holding Kuwaiti prisoners. He refuses to give any 
type of humanitarian report to their families. I would call on 
Saddam Hussein today, and anybody who is advocating that we end 
this embargo, to make a call on Saddam Hussein before anything 
happens to make sure we have an accounting of those prisoners.
    Second, I agree that supporting the resistance does not 
seem to have worked. I do not think this Administration has 
taken seriously the move by Congress to provide resources for 
Kuwaiti resistance, not as seriously as it should have been 
taken. However, I would say that before we can be taken 
seriously, Mr. Chairman, I believe that the Congress, and I 
would call on Congress, and I may offer this resolution myself, 
to provide legislation that will end the prohibition on the 
assassination of foreign leaders in relationship to Saddam 
Hussein.
    Saddam Hussein is a rabid dog who is murdering his own 
people, who is a threat to millions of other people's lives, 
and we should repeal that prohibition in relationship to people 
like Saddam Hussein, and Saddam Hussein specifically. Perhaps 
if Congress would do that, the $100 million we provided for the 
overthrow of Saddam Hussein would be taken seriously. After 
all, what was that $100 million for? It was to replace Saddam 
Hussein.
    We think that they are going to carry him out, let him go 
to some island, and live a life of luxury for the rest of his 
life? Is that what the resistance would have done in our view? 
No. It would have military confrontation, and hopefully Saddam 
Hussein would have lost it. With that said, I commend again the 
job that you have been doing. I have been more angry than most.
    I backed the Chairman in the Chairman's resolution that 
passed before the House yesterday, in asking the Administration 
to use this leverage to bring down oil prices. I believe Saudi 
Arabia and Kuwait, by being involved in that price fixing 
conspiracy, have shaken the faith that many of us had in that 
friendship. I commend the President. I commend the Chairman for 
the leadership he has provided in that. But we should never 
forget at the same time that there is a severe challenge in 
that region, and that is why Saudi Arabia and Kuwait should 
make sure they keep our friendship and loyalty. Thank you very 
much.
    Chairman Gilman.  Thank you, Mr. Rohrabacher. Mr. Delahunt.
    Mr. Delahunt.  Just one question, that is all. I know we 
are running out of time. We have a vote. The 5,000 figure that 
UNICEF claims, if you could respond, is that a fair and 
accurate figure?
    Mr. Welch.  Thank you, Mr. Congressman, for asking this 
question, because there have been numerous references.
    Mr. Delahunt.  I do not care where it came from. I am just 
interested in the accuracy of the figure. I do not want an 
explanation.
    Mr. Welch.  If I could just say, though, one thing.
    Mr. Delahunt.  We have got to vote, Mr. Welch. I have great 
respect for you, but is it a figure that, give or take----
    Mr. Welch.  Please permit me just to say one thing. 
Regardless of the figures, U.S. policy is not based on finding 
an acceptable number of dead children. Mr. Delahunt. Believe 
me, Mr. Welch, I am not questioning the policy. I just want to 
know, if that is an inaccurate figure, what is the figure? I 
have an estimate.
    Mr. Welch.  We have pursued this. . .
    Mr. Delahunt.  I am not blaming the United States. I just 
want to know.
    Mr. Welch.  We pursued this question with UNICEF. Frankly, 
the numbers are hard to know. Causality is hard to prove or to 
disprove.
    Mr. Delahunt.  I am not even asking for causality. I am 
just saying----
    Mr. Welch.  The data that seems to be relatively well-
established in their report is on the number of live births, 
number of deaths per birth. In the north, that figure is better 
today than it was before the war. In the south and central Iraq 
that figure is worse.
    Mr. Delahunt.  Mr. Welch, I respect that, but we have less 
than a moment. Are we talking approximately 5,000 dying?
    Mr. Welch.  I do not know. That is a new one to me.
    Mr. Delahunt.  So, you cannot question the validity or the 
legitimacy. You do not have enough information to challenge the 
validity of the numbers.
    Mr. Welch.  But I do want to establish what connection it 
has to our policy and to the causality question.
    Mr. Delahunt.  I am not even suggesting that there is a 
causality. I did not mean to suggest that. But I just wanted to 
see if there is a disagreement or if there is credible evidence 
that, that is an inaccurate figure. You do not have any 
evidence.
    Mr. Welch.  Congressman, I would like the opportunity to 
provide in writing an answer with respect to the 5,000 number.
    Mr. Delahunt.  Sure.
    [The information referred to appears as Exhibit A in the 
appendix.]
    Mr. Delahunt.  We have got to go vote. Thank you.
    Chairman Gilman.  Thank you, Mr. Delahunt.
    The Committee will stand in recess pending the votes on the 
Floor. We will continue our discussion as soon as the voting is 
over with.
    The Committee stands in recess.
    [Recess.]
    Mr. Smith.  [Presiding.] The Committee will resume its 
sitting. First of all, Secretary Welch, thank you for your 
patience. We do appreciate your standing by during this series 
of votes we have on the Floor. Chairman Gilman, unfortunately, 
has a delegation that he is meeting with from one of the other 
countries, oh, from New York State. So, again, I thank you for 
your patience.
    I do have a couple of questions I would just like to pose. 
Back on February 18th, I had sent a letter, as Subcommittee 
Chairman of International Operations and Human Rights, to 
Secretary of State Madeleine Albright, asking a number of very 
specific questions. I mean, as I said in my opening comments, I 
am like many others very torn by these reports of so many 
children dying.
    While there may be some hyperbole, if there are just some 
children dying, and any of this is attributable to our 
sanctions regime, and we are not doing all that can be done to 
mitigate that outcome, shame on us. So the question that I 
pose, and I would ask unanimous consent that the letter be made 
a part of the record, and the questions that are asked in that 
letter be considered by you, Secretary Welch, as questions that 
we really would like to get on the record as quickly as 
possible.
    [The information referred to appears as Exhibit B in the 
appendix.]
    Mr. Smith.  Just to ask a couple of questions that are of 
concern, you mentioned that about, I think it was 10 percent of 
the oil-for-food contracts are held up. As you probably know, 
on February 7th, the Secretary, or the Director, I should say, 
Sevan, reiterated his serious concern, and these are his words, 
``serious concern,'' at the persistent high level of holds 
placed on applications for humanitarian supplies. I think the 
number you gave us is about 10 percent.
    He also pointed out that there is currently a backlog of 
around 800 humanitarian and oil sector applications awaiting 
review. Is that true? Are there that many that have not been 
approved? To what do we attribute it? Is there a lack of 
staffing, an insufficient number of people? What's the holdup?
    Mr. Welch.  Mr. Smith, I would also like to add an answer, 
because I said something while you were not in the room, sir, 
and it referred back to a point you had raised. I think your 
words were, in looking at this problem of infant mortality, 
that one dead child is one too many. I could not agree more 
with that. What I said to one of your colleagues was, please 
understand that American policy is not based on the calculation 
of acceptable numbers of dead children. I feel it is very 
important as an American official to make that statement. There 
are no acceptable numbers.
    Audience Member: That is not what the Secretary of State 
said. She said that----
    Mr. Smith.  Please, order. This is a hearing. This is not a 
town meeting. So I would ask you to refrain from any comments. 
You can make them to the press, if you like, outside the door.
    Mr. Welch.  Mr. Smith, I have your letter, and we have been 
doing a considerable amount of work to get you specific answers 
to each of the detailed questions you ask, which are very good 
questions, sir. Normally it is my preference to answer such 
correspondence before we have hearings on the matter. However, 
in view of the importance of this subject, we wanted to come up 
here and have a chance to get all our information out in 
public. We will answer your letter now very rapidly.
    One part of this gets to the high level of holds that you 
asked about both in the letter and just now. When we received 
your letter, we were in the midst of an internal review of how 
we administer the oil-for-food program. Contrary to the 
headlines in some of the newspapers that this constitutes an 
easing or changing of sanctions, what it is, is a way to look 
at a more effective administration of the program. If I could 
just say a couple of words about that. First, the 
responsibility for that is shared.
    Iraq should do something. The U.N. should do something. The 
Security Council should do something, and the United States 
probably should, too. I can only speak and have control over 
the last of those things. In response to your question, we have 
undertaken this review of how we run the program. I do not know 
what it will produce with respect to the numbers of contract 
holds. It is my hope, of course, that the numbers go down.
    But as I said in my testimony, we feel there is a valid 
approach that we have to striking a balance between 
humanitarian concern and non-proliferation risks. We want to 
strike the right balance in both cases. I think we can make an 
improvement, frankly. Now, in terms of the numbers, the number 
is actually today greater than 800. It is probably more than 
1,000. But that masks a lot of different kinds of issues.
    For example, I would say fully a third of that number, that 
is, somewhere between 300 and 400, is because when we get a 
contract, it will say something like spare parts. You cannot 
make a good judgment about humanitarian concern or non-
proliferation risks if the information is incomplete.
    Another area is dual-use technology, technology that is 
specifically barred from entry into Iraq, unless there is 
adequate monitoring on the other end. Right now, frankly, the 
monitoring is deficient, because UNMOVIC is not there. That 
category of holds probably comprises another 300 or so. There 
is a great deal of difficulty in addressing that. That may be a 
figure we have a hard time coming to grips with.
    Another group of holds would be the ones where, frankly, we 
sat around and not had the resources or the intensity to focus 
on them. A large part of that is because this program has grown 
very rapidly. I was telling one of your colleagues earlier that 
the full value of the oil-for-food program was actually 
attained only in the fall of 1999. Thus, the amounts of 
contracts and the deposits into the bank account, the escrow 
account, have grown logarithmically, and that has put a strain 
on our resources.
    Secretary Albright has directed that we give more attention 
to this, and has directed also that more personnel be provided 
to the effort. They are working through that now.
    Mr. Smith.  Personnel are actually deployed in this effort.
    Mr. Welch.  It is an interagency system. That includes 
people from the intelligence community, the Department of 
Defense, the Department of Energy now. We have gotten them into 
it because of certain kinds of contracts that ought to be 
reviewed by DOE, and the State Department. In the State 
Department, there are personnel from the non-proliferation 
bureau, which has the main authority for export-import 
monitoring and export controls. There are a couple of people 
who work on this in my office, and a couple of people in the 
Middle East bureau. I cannot give you an exact figure on the 
aggregate number in the State Department, but I would say no 
more than, would I be right in saying, about ten or so?
    Mr. Smith.  Do you suspect that you will actually increase 
that, in order to accommodate this explosion of available cash 
and the need?
    Mr. Welch.  I would like to do that. Unfortunately, 
resources are a real problem in the department today. I am sure 
you heard this from my boss several times, Mr. Smith. We have a 
deficit of personnel. What that means, practically speaking, is 
we have 400 jobs in the State Department right now that cannot 
be filled because we do not have the people. But, yes, this is 
a high priority. The Secretary has directed that increased 
resources be given to it. I believe that will mean that we will 
do so.
    Mr. Smith.  If you could get back to us as to those plans, 
because it would seem to me that the allocation of scarce 
resources is urgent, especially given the implications of not 
doing it and the loss of life, or at least the mitigation of 
health on the part of these kids.
    Mr. Welch:  Yes, sir.
    [The information referred to appears as Exhibit C in the 
appendix.]
    Mr. Smith.  The number 5,000, could you shed some light on 
the veracity of that number? I tried, in questioning Mr. 
Conyers, and he seemed to indicate that it is current and up to 
date, and, as of this past February, there were another 5,000 
children who have died. Is this accurate? That is not to say 
that if it is 2,000, it is OK. There is no acceptable number, 
from my point of view as well. But we really need to have 
absolute clarity, as much as humanly possible, as to what the 
real numbers are.
    Mr. Welch.  The honest answer is I do not know. The 
estimates that UNICEF did where we thought there was 
statistical validity were on infant mortality as a percentage 
of live births. There, I think I would agree, if I understand 
the conclusion that Mr. Conyers was drawing, that infant 
mortality has increased in South and Central Iraq during the 
decade of the 1990's. It was rightly pointed out that it has 
gone down by comparison to pre-war levels in the North.
    UNICEF itself does not, however, assert causality.
    Causality is hard to prove or disprove in this situation.
    But they have not asserted that these deaths are 
specifically the result of sanctions.
    We believe that the problem of infant mortality has, 
however, been aggravated by the deterioration, in particular in 
the sanitation sector. It is our conviction that some of that 
can be addressed by better administration of the oil-for-food 
program, including looking at those areas where potential dual-
use items might be needed for that purpose.
    Let me mention, for example, chlorine. I have done some 
work now with UNICEF to check whether their monitoring of 
chlorine usage would hold up, because chlorine is a precursor, 
as you know. I think we are reassured that, yes, that system is 
working reasonably well. But now we need to look at the 
potential dual-use equipment more carefully.
    Mr. Smith.  It terms of medicines, you pointed out that 
there were, over the past three years, more than $1 billion 
worth of medicines approved. I assume by ``approved'' you also 
mean imported? Because you used the word ``imported'' before 
about the 50 million, or are they at some stage of getting into 
the country?
    Mr. Welch.  No, I would expect that some part of that 
number is in the pipeline.
    Mr. Smith.  How does all of that relate to pre-war numbers? 
I mean, was there an indigenous pharmaceutical industry at all 
in Iraq? I do not know that. I really would like to know.
    Mr. Welch.  I cannot say. I can provide an answer on that, 
Mr. Smith.
    Mr. Smith.  OK, that would be fine.
    [The information referred to appears as Exhibit D in the 
appendix.]
    Mr. Smith.  Do you know whether or not they were net or 
total importers of all of their drug----
    Mr. Welch.  I think that one indicator we have, though, 
broadly speaking, of the requirements in the medical area is 
provided in the Secretary General's recent report. That report 
basically says that the availability of medicines is much 
improved, with 90 percent of the needs being met. I cannot say 
what the criticality of the remainder would be, and that the 
more acute needs are now in other sectors.
    Mr. Smith.  Let me just ask, are international humanitarian 
non-governmental organizations presently afforded full and 
unfettered access to the areas of Iraq controlled by the 
government?
    Mr. Welch.  No; less than full and fettered access. In the 
North, there are numerous NGO's and international organizations 
that operate effectively and easily. In South and Central Iraq, 
the situation is far poorer by comparison, especially in South 
Iraq, where the government cites security reasons for not 
allowing international organizations in. I believe ICRC has 
finally established a presence in Basra, but I cannot think of 
any others at the moment that have been able to operate down 
there.
    I am sorry, I forgot this. In 1284, the Security Council 
imposed an obligation on Iraq to permit that access, because it 
is cognizant that it obviously would be better if international 
organizations were in there and had a chance to take a look.
    Mr. Smith.  Thank you.
    I would like to ask Mr. Sanford if he could take the Chair. 
Regrettably, I have to leave myself. But I thank you, Secretary 
Welch, for your testimony.
    Mr. Sanford.  [Presiding.] I would echo Mr. Smith's 
sentiments in thanking you for your very generous use of time. 
I will basically have four quick questions.
    Mr. Welch.  Yes, sir.
    Mr. Sanford.  First of all, in your testimony you had 
described containment as a factor. Even before I say that, I 
would make a strong division between economic and military 
sanctions. I would, for the most part, agree with your thoughts 
on economic sanctions. I strongly disagree with, in essence, 
your and Ms. Romanowski's thoughts on the military sanctions 
and their efficacy.
    Toward that end, you said in your testimony that 
containment was effective, but it did not meet the standards 
necessary to bring about its end. In other words, Saddam would 
not do the things in his regime to bring about its end over the 
course of his life.
    Now, I find that really unsettling, because I come from 
South Carolina. We have got a guy named Strom Thurmond, who is 
two years away from hitting 100, which is to say that if Saddam 
had anywhere near the same kind of life expectancy, you could 
be looking at, let us say, another 40 years of him being 
around, which is to say if we add up the $1.2 billion that it 
is now costing the military to impose these, in essence, 
military sanctions, and we leave off OPTEMPO, which I think 
wears out troops, we leave off depreciation of assets, that 
would be about $48 billion in direct cost to continue to 
maintain these military sanctions. Do you think this 
approximately $50 billion expenditure is worthwhile?
    Mr. Welch.  If I might answer the last first. The answer, 
Mr. Sanford, is yes, I do. I am not certain that, that is the 
exact cost to the United States.
    Mr. Sanford.  Probably higher, because of OPTEMPO, again, 
depreciation of assets, et cetera. But ballpark, we would say 
in this hypothetical it could be $50 billion worth of expense.
    Mr. Welch.  I think every Administration has agreed that 
the Persian Gulf area is of vital strategic interest to the 
United States. That since August 1990, the Iraqi regime poses 
the most significant threat to peace and security in that area. 
Therefore, successive Administrations have felt that this is a 
price that's appropriate. I believe that even were Saddam not 
there, America would have an interest in a security presence in 
that area. Were those all of your questions?
    Mr. Sanford.  No, no. That is the first one. I have four. 
But we can come back. Do you have a thought? Go ahead.
    Mr. Welch.  You asked about whether this is never going to 
end in effect until Saddam is gone.
    Mr. Sanford.  Those were your words.
    Mr. Welch.  Right. I said I did not expect him to comply.
    Mr. Sanford.  Right.
    Mr. Welch.  I do not. That is an objective judgment.
    However, if lightning strikes and I am proven wrong, the 
United States signed up to these Security Council resolutions, 
and we will implement them. I think the answer that I have 
tried to give on economic and military sanctions was to draw a 
distinction here, which I feel is important.
    Mr. Sanford.  I agree with the distinction.
    Mr. Welch.  Because the sanctions provide control of money. 
If you lift those and you lose control of those revenues to 
this regime----
    Mr. Sanford.  I am not disagreeing with you. Again, because 
of what you have said about effectiveness, in other words, I 
would not dispute at all that this is an area of vital 
strategic interest. But in terms of effectiveness, in other 
words, there I think I would have to disagree, because the 
question you have to ask when spending the hypothetical $50 
billion is, are we effectively making a difference on what the 
air cover is supposed to be doing, which according to U.N. 
Security Council Resolution 688, is to cease repression of 
Iraqi civilian populations. To suggest that this is the case, 
that somehow people in Iraq are unrepressed, I think is just at 
total odds with the facts on the ground.
    Mr. Welch.  Yes, sir. I think perhaps in that particular 
area, what our presence has done is deter the worst of the 
depredations but not all of them. So you are absolutely right. 
In terms of the effectiveness of containment, of course 
everybody has an opinion on this. Let me offer just the 
following view. I think that some pretty strong words have been 
said about this regime here today.
    Mr. Sanford.  Sure.
    Mr. Welch.  I would make my own contribution in that 
regard.
    Mr. Sanford.  Absolutely.
    Mr. Welch.  But we do know the leader of Iraq. He has 
struck out at his neighbors once every decade with a major war.
    Mr. Sanford.  Right.
    Mr. Welch.  The sanctions that have been in place have, at 
a minimum, deterred one in this last decade. That is not an 
unimportant result.
    Mr. Sanford.  I do not know that you could draw that. I do 
not know that, that is a validate hypothesis. In other words, 
it may have been that the economic sanctions were partly 
attributable to him not lashing out over the last ten years. It 
may have been the fact that he has been rebuilding 
infrastructure over the last ten years that has kept him from 
lashing out.
    So I want to specifically focus, in my remarks, really on 
the no-fly zone. That is what I am really getting at here. I do 
not know how you would say that the no-fly zone is effective, 
because we can through satellite imagery and otherwise come up 
with detection as to whether or not he is massing troops, et 
cetera.
    In fact, I would go on to my second point. Your comment in 
your testimony, then, that we have contained the Iraqi 
military, which I guess is what you are stressing now. He has 
not lashed out in the last ten years. But if you look at 1999 
numbers, there were 600 breaches of the no-fly zone in 1999.
    In essence, to round it, basically two times a day, he is 
breaching the no-fly zone. I go back again to effective 
containment. How is that an effective containment of his air 
forces? Or turned another way, do you see any place within Iraq 
where an insurrection has been made possible because of the no-
fly zone?
    Mr. Welch.  They are not there to promote insurrection in 
the area under their supervision, but to deter the government 
of Iraq from using air power against the populations in those 
areas. In the case of the southern no-fly zone, they are 
associated with the enforcement of Resolution 949, which says 
that Iraq cannot put additional forces into that area.
    Mr. Sanford.  If I were to go back with what you just said, 
that there was outright repression of the Iraqi people, they 
would say to me, in other words--it was explained a long time 
ago--that one of the possible outcomes of having a no-fly zone 
would be that Saddam would not be able to get his troops to 
places where Iraqi National Congress or others would gather 
folks to storm up in arms against him. That did not happen.
    You say that is not one of the goals of the current no-fly 
zone. In fact, it is to make sure there is not repression. So 
instead they shoot you with a gun, a pistol, as opposed to a 
gun out of a helicopter.
    Mr. Welch.  Yes, I agree that there is that risk that 
Saddam could do that. We have seen him do it in the past. I am 
sorry my defense colleague is not here to talk about the 
numbers of breaches, and their character, and how we respond. 
Let me say something from my own experience in the past.
    I have negotiated several cease-fires with the Kurdish 
groups in northern Iraq. I have been to northern Iraq several 
times myself. To a person, the population of northern Iraq 
would be frightened, dismayed, perhaps to the point of voting 
with their feet, were an American presence not overhead. This 
is something that they strongly desire, fervently desire. Now, 
with respect to the no-fly zone in the south, there is----
    Mr. Sanford.  But that is not to say that they are not 
repressed.
    Mr. Welch.  Actually, in the North, things are a lot 
better.
    Mr. Sanford.  Better, but still repressed.
    Mr. Welch.  Wherever Saddam can reach, he generally has a 
practice of repression.
    Mr. Sanford.  Right.
    Mr. Welch.  That is certainly the case in the South. In 
that instance, however, I would argue that the no-fly zones 
help prevent and deter the worst of the depredations through 
use of helicopters. I would also argue that Iraq's immediate 
neighbors are profoundly reassured by the presence of American 
forces over the skies of southern Iraq. That is not unimportant 
to us, in terms of our regional security interests.
    Mr. Sanford.  Third question: The military have a term 
called center of gravity, wherein if you hit your enemy, for 
instance, in the war in Vietnam, we never really impacted North 
Vietnam's center of gravity. As a result, every night they had 
on the news nightly body counts, but we were not impacting 
their center of gravity. As a result, we lost. Could you show 
me where this air war, if you will, is impacting Saddam's 
center of gravity?
    Mr. Welch.  I do not know that I am competent to answer 
that question, Mr. Sanford. If you do not mind, I would like to 
submit an answer or have the Department of Defense submit its 
answer with respect to that. But as I understand your question, 
it would be what effect this is having on the Iraqi military.
    Mr. Sanford. Right.
    Mr. Welch.  Yes, sir.
    [The information referred to appears as Exhibits E and F in 
the appendix.]
    Mr. Sanford.  Last question: Scott Ritter, who himself has 
been on the ground, as have you, has basically said that the 
no-fly zone is pretty much a waste of time. Is he incompetent, 
misinformed; or if wrong, why?
    Mr. Welch.  Mr. Ritter has had lots of views. I also 
understand he has written advocating the lifting of sanctions. 
I have expressed the Administration's view today on that idea.
    Mr. Sanford.  I am not disagreeing with you on that part.
    Mr. Welch.  So he pretty much covered a lot of ground in 
his views.
    Mr. Sanford.  Sure.
    Mr. Welch.  He did a good job when he was at UNSCOM. I am 
sorry he quit when he did, because the job was incomplete. With 
respect to his opinions now, he is entitled to have those. I 
would have to look at exactly what he said and see whether I 
agree with it or not. I do not agree with his idea about 
lifting sanctions. I think he wrote an editorial to the Boston 
Globe about that.
    Mr. Sanford.  I sure appreciate your time. Nobody else is 
here, so the hearing is adjourned.
    Mr. Welch.  Thank you.
    [Whereupon, the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             March 23, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T6252.001
    
    [GRAPHIC] [TIFF OMITTED] T6252.002
    
    [GRAPHIC] [TIFF OMITTED] T6252.003
    
    [GRAPHIC] [TIFF OMITTED] T6252.004
    
    [GRAPHIC] [TIFF OMITTED] T6252.005
    
    [GRAPHIC] [TIFF OMITTED] T6252.006
    
    [GRAPHIC] [TIFF OMITTED] T6252.007
    
    [GRAPHIC] [TIFF OMITTED] T6252.008
    
    [GRAPHIC] [TIFF OMITTED] T6252.009
    
    [GRAPHIC] [TIFF OMITTED] T6252.010
    
    [GRAPHIC] [TIFF OMITTED] T6252.011
    
    [GRAPHIC] [TIFF OMITTED] T6252.012
    
    [GRAPHIC] [TIFF OMITTED] T6252.013
    
    [GRAPHIC] [TIFF OMITTED] T6252.014
    
    [GRAPHIC] [TIFF OMITTED] T6252.015
    
    [GRAPHIC] [TIFF OMITTED] T6252.016
    
    [GRAPHIC] [TIFF OMITTED] T6252.017
    
    [GRAPHIC] [TIFF OMITTED] T6252.018
    
    [GRAPHIC] [TIFF OMITTED] T6252.019
    
    [GRAPHIC] [TIFF OMITTED] T6252.020
    
    [GRAPHIC] [TIFF OMITTED] T6252.021
    
    [GRAPHIC] [TIFF OMITTED] T6252.022
    
    [GRAPHIC] [TIFF OMITTED] T6252.023
    
    [GRAPHIC] [TIFF OMITTED] T6252.024
    
    [GRAPHIC] [TIFF OMITTED] T6252.025
    
    [GRAPHIC] [TIFF OMITTED] T6252.026
    
    [GRAPHIC] [TIFF OMITTED] T6252.027
    
    [GRAPHIC] [TIFF OMITTED] T6252.028
    
    [GRAPHIC] [TIFF OMITTED] T6252.029
    
    [GRAPHIC] [TIFF OMITTED] T6252.030
    
    [GRAPHIC] [TIFF OMITTED] T6252.031
    
    [GRAPHIC] [TIFF OMITTED] T6252.032
    

</pre></body></html>
